HHS/OIG, Audit - "Audit of the Pension Plan at a Terminated Medicare Contractor, Blue Cross Blue Shield of North Carolina," (A-07-02-03017)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Pension Plan at a Terminated Medicare Contractor, Blue
Cross Blue Shield of North Carolina," (A-07-02-03017)
February 12, 2003
Complete Text of Report is available in PDF format
(689 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Blue Cross Blue Shield of North Carolina (BCBSNC) served as a Medicare contractor
until their contract was terminated in October 2001. Federal regulations and
Medicare contract provisions require pension gains, which occur when a Medicare
segment of a contractors pension plan closes, be credited to the Medicare program.
We identified about $5.3 million in excess Medicare pension assets at BCBSNC
at the time of contract termination. Our methodology and calculations were reviewed
by the Centers for Medicare and Medicaid Services pension actuarial staff.
We are recommending that BCBSNC refund the $5.3 million to the Medicare program.